21-5788 OiiiAL

No. :

FILED

SEP 1 7 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

PAUL J. BEGNOCHE, Sr.

— PETITIONER

(Your Name)
vs.
SUPERINTENDENT SCI MERCER: PA. ATTORNEY GENERAL/or

— RESPONDENT(S)

OFFICE OF ATTORNEY GENERALj ATT. OF NOTICE: DEPUTY D.A. RYAN LYSAGHT •

ON PETITION FOR A WRIT OF CERTIORARI TO

U.S COURT OF APPEALS FOR THE 3rd

CIRCUIT OF PENNSYLVANIA

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Paul J. Begnoche, Sr. PA DOC KH1738

(Your Name)
SCI MERCER
801 Butler Pike

(Address)
Mercer, PA 16137-5653

(City, State, Zip Code)

received
(Phone Number)

SEP 2 2 2021

QUESTION(S) PRESENTED
This case before the Honorable Court through its Materiality of (5) years of impermissible Inordinate
Delays presents important issues in the interest of justice, U.S. Public Concern, and especially concerns of
the U.S. Citizens immediately affected through the collateral Liberty Interests Violations disregarde
through either Judicial Neglect, Manifest Mistakes, prejudice of the subject matter, or Partiality that
eroded Federal Rights of Due Process-Equal Protection of Law in a 3rd Circuit Judical Systemi that fai
to exercise its jurisdiction under Statute 28 U.S.C §2254.; and its Statutory obhgationsof de novarevie
in adjudicating appellant's cognizable Federal-Constitutional Law claims contrary to. [ ] is
right of every American citizen when charged with a crime, to be tried, in accordance to law...and'[
ineffectual, there is immunity from punishment...," Ex Parte Mulligan, Infra; Habeas CorPu5 ^he
redress due process violations regardless of the heinousness of the crime, [and], apparent guilt of the
offender," Irvin, Infra; "There is no higher duty of a court, under our Constitutional system then to
carefully process and adjudication of petitioners for Writ of Habeas Corpus, for it is in such proceedings
that a person in custody charges error, neglect, or evil purpose has resulted in unlawful «™fineme
and he is deprived of freedom contrary to law," Hams, Infra. The gross Neglect to exercise 28 U.S.C
§2254. Jurisdiction that dismissed appellant's First 2254. Writ Petition; without certificate of
appealability is a serious matter risking injury to critical human liberty Interests that arises substantia
questions of the Intergrity of the Thrid Circuit Judicial system? Mr. Begnoche presents the following
questions:
!)•
Motion
"Covid Standing Order 2020-19” and United States
Language of previous order; and District Court
Supreme Court "Covid List"?
2) Did the Panel of the Third Circuit Lack Juridiction to rule on the merits of the Habeas Corpus Petition
when it sidestepped the appropriate process which denied appellant his Due Process R'ghtsunder
§2253. to make his substantial showing of his L.A.R. 22.3 Statement of Reasons for App ic
Certificate of Appeaiablity?
3). Did the Third Circuit Middle District Court's Abuse of Discretion denying (8) Motions for Court
Appointed Counssel interfere with the Normal Operations of the Third Circuit Judiciary System, deny
appellant his Rights to Access to^The Courts to adequately develope his non-frivolous claims, and satify
his Burden of high legal standards to show entitlement to an evidentiary Hearing and Habeas Corpus
§1915(d) and §2241(C)?
relief contrary to 18 U.S.C.§30O6a and 28 u.s.c.

Exparte Milligan, 71 (wall) 2,118-120 (1886)
Irvin v. Down, 366 U.S. 717, 722 (1961)
Harris v Nelson, 394 U.S. 286, 292 (1969)

-Ci)

.i

DISCLOSURE OF CORPORATE OR FINANCIAL INTERESTED PERSONS
Pursuant to U.S. Supreme Court Rule 29.6, appellant Paul J. Begnoche presents for
the Record the following Interested Persons and Corporate Disclosure:
1). Mr. Begnoche is not a subsidiary or affiliate of a public owned company;
2). All respondent interest parties are listed in the cover caption as
Superintendent of PA DOC SCI MERCER; Pennsylvania Attorney General or
the Office of Attorney General; all respresented by attorney of Notice:
Deputy D.A. Ryan H. Lysaght, Esq; further concerned parties of Service
shall be the U.S. Court of Appeals for the Third Circuit of Pennsylvania;
and the Middle District Court of the Third Circuit of Pennsylvania; as
all parties in direct interest of the outcome of this case.

CASES IN RELATION TO THIS CASE
Timely filed Satute 28 U.S.C §2254. Writ of Habeas Corpus Petition, filed d>n.
October 8, 2015, as DKT No. 3:15-CV-02047, Documents 1-2
RELATED U.S. THIRD CIRCUIT COURT OF APPEALS CASES
Case No. 20-2205, Writ of Mandamus Petition; filed by appellant, DENIED
Case No. 18-1021 Supreme Court Rule §12.5 Interlocutory Appeals; filed by appellant
and DENIED
Case No. 17-1556 Writ of Mandamus Petition; filed by appellant, DENIED
Case No. 16-3233 Writ of Mandamus Petition; filed by appellant; DENIED
COMMONWEALTH OF PENNSYLVANIA COURTS
Supreme Court of Pennsylvania Case No. 255 MDA 2015
Superior Court of Pennsylvania Case No. 286 MDA 2014
Court of Common Pleas Court DKT Nq. CP-22-CR-04038-2010
STATE OF CONNECTICUT, Uniform Criminal Extradition Act, Chapter 964, 54-166.
Habeas Corpus Proceedings, DKT No. CV10-4050404

INDEX TO APPENDICES
APPENDIX A :MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS: and Affidavit or
Declaration in support of Motion for Leave
APPENDIX B , United States Court of Appeals for the Third Circuit ORDERS and
all of appellant's Motions/Cocrespondenees of Case No. 20-2616
APPENDIX C United States Court of Appeals ORDER, and appellant's Notice of
Appeal, Briefs of Case No. 18-1021, District Court Order,
..^Appellant's Motion for C.A.C, jlAbuse of ^Discretion issues
(xi)

JURISDICTION

[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was January 12, 2021
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
and a copy of the
Appeals on the following date: June 25, 2021
B
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including---------in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
And United States Supreme Court Rule 10.(a)-(c).

STATEMENT OF THE CASE
.1). On 10/01/2015, AS DOCS 1-2, appellant very timely filed his 28 U.S.C.§2254. Writ of Habeas Corpus
Petition; filed by the District Court on 10/21/2015;
2). Through Doc 8, appellant filed his 1st Motion for C.A.C.; and doc 11 choice of Notice of election;
3). On 12/18/2015, Doc 13, the District Court decreed its Order To show Cause and Memorandum Order
for respondents to Answer to the Writ Petition under Rules 3-4-5;
4). On 3/09/2016, Doc 30, after (2) motions for extension of time, respondents filed a Bad faith 28 U.S.C
§2244(D)(1) Timeliness of Petition Defense; with exhibits that showed appellant was in fact timely.
Though respondents filed no other additional documents concerning the Court's Order for an Answer;
5). On 03/22/2016, Doc 31 appellant filed traverse letter, on 04/11/2016, doc 34, appellant filed 2nd
traverse letter, and on 4/12/2016, Doc 36 appellant filed his Appendix of exhibits all supporting his
28 U.S.C. §2244(D)(1) Timeliness of Petition;
6). On 11/15/2017, Doc 93 District Court Memorandum Order, 4. Respondents' request this matteer be
dismissed as untimely is DENIED;" after (2) yrs of Inordinate Delays;
7). On 12/05/2017, Doc 96, respondents through further Bad Faith and prejudicial piece-mealing,
submitted an answer alleging "Procedural Default," though never answered to the appellant's "Core
Issues" of his writ petititon. Respondents submitted no other documents that complied to the Distrcit
Court's memorandum order Doc 13-96, Answer requiring Pennsylvania PCRA Petition proceeding
document/Briefs/and Court orders;
(iii)

8). On 02/26/2018, appellant filed his Docs 110-111 appendix of exhibits; and doc 112 Reply Brief in
opposition, Doc 113 Memorandum of Law all condemning respondents' piece-mealed allegations of
"Procedural Default." None of these Documents 110-11-112-113, were ever entertained by the district
Court through any specific order;
9). After about (2) yrs of Inordinate delays on 4/22/2019, Doc 160 Memorandum Order; District Court
ordered respondents to file, "Supplematal appendix of exhibits consisting of the entire record before
the Pennsylvania superior court when it affirmed denial of PCRA Relief to the petitioner;"
10) Due to respondents' egregious Neglect to comply to the District Court's Orders, Docs 13-96-160,
appellant was forced to file his 5/02/2020, Motion to Enforce Court Orders; that was also neglected to
be entertained by the District Court until after the Writ Petition was denied. Leaving the District Court
without any proper documents from the respondents concerning the state PCRA Proceedings to make
any informed mandatory de nova review required under statute 28 U.S.C.§2254.;
11). Throughout this (5) yrs of District Court pre-verdict Inordinate delays, appellant was forced to file (8)
Motions for court appointed counsel as Documents 15-18-41-65-82-95-143, and 173; all denied through
Abuse of Discretion. On 01/03/2018, appellant timely filed his "Notice of Appeal" before the Third
Circuit Court of Appeals, to appeal his (6th) Motion for Court Appointed Counsel, Denial. The Third
Circuit Panel failed to exercise its Jurisdiction under United States Supreme Court rule §12.5 Denial of
Interlocutatory Appeals; and prejudicially dimissed appellant's Case No. 18-1021 Appeal alleging lack of
Jurisdiction;
12). Appellant also was forced to file (3) Writ of Mandamus Petitions before the Third Circuit Court of
Appeals to enforce his Rights to a "prompt1 and Speedy resolvement of his 28 U.S.C.§2254. Writ of
Habeas Corpus Petition, free of District Court's impermissible pre-verdict Inordinate delays; First Writ of
Mandamus was filed on 7/26/2016, Doc 47, Case No. 16-3233; second Writ of Mandamus was filed
on2/28/2017, doc 63, case no. 17-1556, both prejudicially denied contrary to federal-Constitutional Laws
as Lack of Jurisdiction by the Panel of the Third Circuit. Appellant through severe anxieties and
despondence was preparing his 3rd Writ of Mandamus for about nine months before it was filed on
6/09/2020. Appellant sincerely believed he could obtain his 28U.S.C.§ Writ of Habeas Corpus Relief,
through the Third Circuit Court of Appeals under Writ of Mandamus Jurisdiction, though it too was
denied on 8/03/2020, by Circuit Judges Non Presidential Order of case No. 20-2205.
13. On July 9th, 2020, the District Court simultaneously denied/Dismissed (4) of appellant’s Writ of
Habeas Corpus Documents to include appellant's entire first 28 U.S.C. §2254. Writ of Habeas Corpus
Petition, without Certificate of Appealablity. Then next day on July 10th, 2020, the District Court made
another Order denying/dismissing (4) more of appellant's Writ Documents 172-176-178-184. Through the
overwhelming (8) simultaneous Orders it was both severely prejudicial and situationally impossible to
appeal all these issues forced to proceed soley Pro-se during prime Covid -19 Pandemic and SCI MERCER
Prison lockdowns.
14. Appellant’s Apendix of Exhibits B.(l)-(6), clearly identifies the remaining Facts and Procedures
initiated through seeking relief in the U.S. Court of Appeals for the Third Circuit and its Panel Orders of
Case No. 20-2616

(iv.)

I. [Question one] The Panel of the Third Circuit Court of Appeals decreed its Order denying appellant's
Good Cause Motion for Fed Rule App. P. 5, and 4(a)(5)(A)(ii) Extension of Time; to file his LA.R. 22.3
Statement contrary to the Spirit and Language of previous Order; and District Court Covid Standing
Order 2020-19," and United States Supreme Court "Covid Lists."
Respectfully stating in Good Faith while Forced to proceed Pro-se, I plead to the Honorable Court
that the Panel of the Third Circuit acted contrary to Fed Rule App. P. 5, and 4(a)(5)(A)(ii) Extension of
Time; all enacted Federal Cobid Procedures, and the Honorable Court's "Covid Order List:589 U.S.. I
diligently cited relative Federal Laws-Rules while pleading my Good Cause reasons of Denied Access to
the Courts to be granted the Fundamental Fairnes of Extension of Time during prime pandemic/prison
lockdown to file my L.A.R. 22.3 Statement of Reasons for Certificate of Appealability. All supported by
Material Prison documents as expressed within my App. of Exhibits B.(l)-(6). Though as Denied Due
Process-Equal Protection of Law and Fundamental Fairnes, I was prejudicially Denied extension.
II [Question Two] The Panel of the Third circuit lacked Jurisdiction to rule on the merits of the Habeas
Petition when it sidestepped the appropriate process which denied appellant Due Process Rights under
28 U.S.C.§2253. to make his substantial showing of his L.A.R. 22.3 Statement of Reasons for Certificate
of Appealability.
When the Panel denied my Fed Rule App. P. 5, and 4(a)(5)(A)(ii) Extension of Time; in claim #1, it
sidestepped appropriate process while denying me Due Process Rights to state my substantial showing'
of my L.A.R. 22.3 Statement of Reasons for Certificate of Appealability; see APP. of Exhibit B(l)-(6)
III [Question three] The Third Circuit Middle District Court's Abuse of Discretion denying (8) Motions for
Court Appointed Counsel interefered with the NormaJ Operations of the 3rd Circuit Judicial system,
denied appellant's Rights to Access to the Courts to adequately develope his non-frivolous claims, and to
satisfy his Burden of high Legal Standards to show entitlement to an Evidentiary Hearing and Habeas
Corpus Relief contrary to 18 U.S.C.§3006(A); 28 U.S.C.§1915(d) and §2241.
Respectfully showing, it is obvious if I was represented by C.A.C. I wouldn't have to file an
Extension of time to file my L.A.R. 22.3 Statement of Reasons for C.O.A.; or have been prejudicially
subjected to Denied Access to the §2254 Habeas Corpus Court that affected the Normal Operations of
all 3rd Circuit Courts and forced me to appeal before this Honorable Court. I support my (5) yrs
Inordinate Delays and Denied Access to the Federal Judicial system in my APP. of Exhbits C.(l)-(5)
REASON FOR GRANTING THE PETITION
Respectfully stating, my pleadings are cognizable by Reasonable Application of Federal-Constitutional
Laws the Panel prejudicially ignored when denying my Fed Rule App. P. 5, and 4(a)(5)(A)(ii) Extension of
Time, to file my L.A.R. 22.3 Statement of Reasons for C.O.A.
CONCLUDING REQUEST FOR RELIEF
May the Honorable Court recognize this time between 6/25/21, to current date as Extension of Time;
and accept my App. of Exhibit B.(7) L.A.R. 22.3 Statement of Reasons for C.O.A.; as timely as Law and
Justice requires under Codified Standards of §2253[i]. And To Be Court Appointed Counsel to gain full
Access to The Federal Courts and protect my Federal-Constitutional Rights under 28 U.S.C.§2254.
1.

